<html>
<title> - TRAFFICKING IN PERSONS: THE FEDERAL GOVERNMENT'S APPROACH TO ERADICATE THIS WORLDWIDE PROBLEM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





TRAFFICKING IN PERSONS: THE FEDERAL GOVERNMENT'S APPROACH TO ERADICATE 
                         THIS WORLDWIDE PROBLEM

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 8, 2004

                               __________

                           Serial No. 108-247

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-774                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
           Phil Barnet, Minority Chief of Staff/Chief Counsel

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 8, 2004.....................................     1
Statement of:
    Clark, Michele, co-director, protection project, Johns 
      Hopkins University School of Advanced International 
      Studies; Charles Song, director, legal services program, 
      Coalition to Abolish Slavery and Trafficking; and Derek 
      Ellerman, co-executive director, Polaris Project...........    84
    Miller, John, Director, Office to Monitor and Combat 
      Trafficking in Persons, Department of State; R. Alexander 
      Acosta, Assistant Attorney General, Civil Rights Division, 
      Department of Justice; and Christopher Gersten, Principal 
      Deputy Assistant Secretary, Administration for Children and 
      Families, Department of Health and Human Services..........    21
Letters, statements, etc., submitted for the record by:
    Acosta, R. Alexander, Assistant Attorney General, Civil 
      Rights Division, Department of Justice, prepared statement 
      of.........................................................    32
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Information concerning National Geographic...............    76
        Prepared statement of....................................     5
    Clark, Michele, co-director, protection project, Johns 
      Hopkins University School of Advanced International 
      Studies, prepared statement of.............................    87
    Ellerman, Derek, co-executive director, Polaris Project, 
      prepared statement of......................................   106
    Gersten, Christopher, Principal Deputy Assistant Secretary, 
      Administration for Children and Families, Department of 
      Health and Human Services, prepared statement of...........    61
    Miller, John, Director, Office to Monitor and Combat 
      Trafficking in Persons, Department of State, prepared 
      statement of...............................................    24
    Smith, Hon. Chris, a Representative in Congress from the 
      State of New Jersey, information concerning NATO...........    18
    Song, Charles, director, legal services program, Coalition to 
      Abolish Slavery and Trafficking, prepared statement of.....    98
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    13

 
TRAFFICKING IN PERSONS: THE FEDERAL GOVERNMENT'S APPROACH TO ERADICATE 
                         THIS WORLDWIDE PROBLEM

                              ----------                              


                         THURSDAY, JULY 8, 2004

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton, Watson, Smith and Pence.
    Staff present: Mark Walker, chief of staff; Mindi Walker, 
Brian Fauls, and Dan Getz, professional staff members; Nick 
Mutton, press secretary; Danielle Perraut, clerk; Richard 
Butcher, minority professional staff member; and Jean Gosa, 
minority assistant clerk.
    Mr. Burton. We are going to go ahead and get started with 
the hearing. We have other Members who will be coming and 
going. We have a lot going on around here since we are getting 
close to the Democratic and Republican conventions and 
everybody is trying to wrap everything up, so there are a 
number of hearings going on today but we will go ahead and get 
started. Ms. Watson will probably be here in a few minutes and 
Chris Smith is planning to come and Congressman Pence and some 
others.
    A quorum being present, the Subcommittee on Human Rights 
and Wellness will come to order.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record and without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular materials referred to be included in the 
record and without objection, so ordered.
    In the event that other Members attending the hearing want 
to participate, I ask unanimous consent that they be permitted 
to serve as a member of the subcommittee for today's hearing 
and without objection, so ordered. Right on cue, here comes 
Congressman Chris Smith who has just been covered with that 
language.
    The subcommittee is convening today to once again examine 
the atrocious practices of human trafficking and slavery around 
the world and to discuss how the United States is attempting to 
combat these illicit practices both domestically and on an 
international basis.
    The notion that slavery is still practiced in these modern 
times is nearly unbelievable in most peoples' minds, but 
unfortunately, it remains an all too real and living nightmare 
for the 27 million people, this is hard to believe, who have 
fallen victim to some form of slavery and who represent the 
highest concentration of slaves in the entirety of human 
history. We have more slaves now than we did at any point in 
history and this is supposed to be a civilized period.
    Trafficking in persons is a highly profitable subset of 
organized crime accounting for an estimated $13 billion in 
revenues every year to the global economy, $7 billion of which 
is a direct result of the illicit sex trade alone. In addition, 
human slavery is the third largest form of illegal trafficking 
closely trailing the drug trade and illegal gun distribution.
    Because of the enormous profitability of this industry, 
slave holders will stop at nothing to traffic as many slaves as 
possible by tricking and victimizing innocent people into lives 
of servitude by preying on the most economically disadvantaged 
members of society. As soon as victims are deprived of the 
opportunity to return to their homes, they are forced into 
domestic servitude, sweatshop labor, prostitution and other 
types of compulsory labor.
    This crisis has affected every nation in the world in some 
form including many industrialized and developed nations such 
as the United Kingdom, Australia and the United States. No 
country is immune from the detriments of these illegal 
practices.
    Although slavery in all its forms was outlawed nearly 130 
years ago in the United States, approximately 14,500 to 17,500 
men, women and children are suspected to be trafficked across 
American borders every single year. While any instances of 
these horrific crimes are deplorable, this is a relatively low 
number compared to many other industrialized nations.
    Even so, the current administration led by President George 
W. Bush is still not taking these offenses lightly. For the 
first time in history, the President addressed this problem 
head on before the United Nations on September 23 last year. In 
his groundbreaking speech, the President stated, ``There is a 
special evil in the abuse and exploitation of the most innocent 
and vulnerable. Those who created these victims and profit from 
their suffering must be severely punished. Those who patronize 
this industry debase themselves and deepen the misery of others 
and governments that tolerate this trade are tolerating a form 
of slavery.''
    Under the firm guidance of President Bush, the U.S. Federal 
Government has taken many actions to further curve instances of 
slavery within our own borders. On October 28, 2000, then 
President Clinton signed into law the Trafficking Victims 
Protection Act of 2000 sponsored by my good friend who is here 
with us today, Representative Chris Smith of New Jersey. This 
groundbreaking legislation has been instrumental in combating 
human trafficking by supplying the first step toward providing 
protection to victims of these crimes as well as strengthening 
the law with regard to the prosecution of those who perpetrate 
these illicit activities. The bill also requires the Department 
of State to submit an annual report to Congress regarding the 
status of trafficking in persons around the world.
    To address the Department of State actions to combat 
trafficking as well as to discuss the recently released 
Trafficking in Persons Report, the subcommittee has the 
pleasure today of hearing from my former colleague, the 
Honorable John Miller whom I just recognized, Director of the 
Office to Monitor and Combat Trafficking in Persons and a 
former Member of Congress who represented the First District of 
Washington back in 1985-1993 and he is going to speak on these 
issues.
    The Trafficking Victims Protection Act not only provided 
agencies with tools to further monitor and combat instances of 
trafficking, but it also gave the necessary resources to 
provide assistance to the victims of trafficking. Through the 
Department of Health and Human Services, victims and certain 
family members are eligible for benefits and services such as 
medical care, refugee cash and other social services. The 
subcommittee is pleased today to hear from the Honorable 
Christopher Gersten, Principal Deputy Assistant Secretary of 
the Administration for Children and Families at HHS. Welcome, 
Mr. Gersten. He is going to inform us of the agency's programs 
to assist victims of these horrible crimes and improve the 
quality of their lives.
    In December of last year, Congress passed H.R. 2620, the 
Trafficking Victims Protection Reauthorization Act of 2003 
which authorized continued appropriations for fiscal years 2004 
and 2005 for the Trafficking Victims Protection Act of 2000. In 
addition the reauthorization of certain programs, this new law 
added even more initiatives to the Government's anti-
trafficking agenda. Some of the new measures include further 
campaigns to combat sex tourism, harsher punishments for those 
convicted of trafficking offenses and expanded eligibility for 
victims and certain family members for access to further 
access. Chris, you worked on that one as well.
    The act also dictated that the Attorney General must submit 
an annual report of their activities to combat trafficking to 
Congress. The first report was released in May of this year and 
it gave us an idea to gain further perspective on this report 
and the agency's current activities and programs regarding 
human slavery.
    We have the pleasure today to hear of that report from the 
Honorable R. Alexander Acosta, Assistant Attorney General, 
Civil Rights Division, Department of Justice. Thank you for 
being here.
    Not only has the Federal Government worked to strengthen 
its own policies and programs on trafficking, but it also has 
worked alongside non-governmental organizations and NGO's to 
further address this illicit industry and to enhance the 
quality of life for victims of these crimes. To better 
understand these relationships, the subcommittee will receive 
testimony from Mr. Charles Song of the Coalition to Abolish 
Slavery and Trafficking and with the assistance of private 
donors and the Federal Government CAST has established the 
first ever shelter for victims of trafficking in the United 
States.
    In addition to CAST, the subcommittee will also be hearing 
this afternoon from Mr. Derek Ellerman with the Polaris Project 
to discuss their activities on the multi-faceted topic of human 
slavery. The subcommittee is also going to receive testimony 
from Ms. Michele Clark, co-director, Protection Project at the 
Johns Hopkins University School of Advanced International 
Studies to speak on the public policy implications of 
trafficking in the United States.
    As I stated before, trafficking in persons is a human 
rights tragedy that must be eliminated. President Bush's 
administration, the U.S. Federal Government and NGO's like 
those with us today have comprehensively responded to these 
crimes and should be congratulated for their work on this 
important issue.
    This is something we really need to illuminate. We are 
going to try to have more hearings on this in the future. I 
hope we will try to keep this on the front burner so that we 
can do something toward eliminating this tragedy.
    With that, I will yield to my colleague, Ms. Watson.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.001
    
    [GRAPHIC] [TIFF OMITTED] T7774.002
    
    [GRAPHIC] [TIFF OMITTED] T7774.003
    
    [GRAPHIC] [TIFF OMITTED] T7774.004
    
    [GRAPHIC] [TIFF OMITTED] T7774.005
    
    [GRAPHIC] [TIFF OMITTED] T7774.006
    
    Ms. Watson. Thank you so much, Mr. Chairman.
    I certainly appreciate your determined efforts to promote 
awareness on the subject of human trafficking. Many people 
equate trafficking with other countries' problems. In addition 
to the international conflict, we have trafficking problems 
here at home as well as abroad and we must address them also.
    The United States is a major and growing source of 
trafficking activities with some 14,500 to 17,500 victims of 
trafficking entering the United States annually. According to 
the State Department's Fourth Annual Trafficking I Person's 
Report, most women and children trafficked to the United States 
come from Southeast Asia and the former Soviet Union. About 
half of those are forced into sweatshop labor and domestic 
servitude. The rest are forced into prostitution and the sex 
industry. Women trafficked to the United States most often wind 
up in New York, Florida, North Carolina, Hawaii and my own 
State of California. Los Angeles is a major area of human 
trafficking activities.
    The National Center for Missing and Exploited Children has 
provided the committee with some disturbing statistics of 
missing children. In my own State, the Center lists 292 missing 
children and 26 are from my area in Los Angeles or my district. 
With a busy Tom Bradley International Airport, and the close 
proximity of the Mexican border, there are several available 
pathways to traffic and exploit my constituents.
    Although there is a large problem to be addressed, I am 
optimistic for progress in the battle to stem human 
trafficking. Mr. Chairman, I want to thank you for your 
constant attention to this particular concern and issue.
    In 1998, the Clinton administration and Congress launched a 
governmentwide anti-trafficking strategy of prevention, 
protection and support for victims, plus prosecution of 
traffickers. The resulting legislation was the Victims of 
Trafficking and Violence Protection Act of 2000. As a result of 
one of the more important provisions, the State Department 
issued its fourth congressionally mandated annual report on 
worldwide trafficking in June. The current delineation of Tier 
1, Tier 2 and Tier 2 Watch List and Tier 3 nations is providing 
a stronger spotlight on the worldwide problem.
    On December 19, 2003, Congress passed H.R. 2620, or the 
Trafficking Victims Protection Reauthorization Act of 2003. 
This authorization for appropriations allows for fiscal funding 
in 2004 and 2005 of the Trafficking Victims Protection Act of 
2000.
    Recently, the U.S. Government has taken a number of serious 
and significant actions to combat trafficking occurring at 
home. For example, the Department of Justice has focused on 
increasing the number of trafficking victims rescued and the 
number of prosecutions and convictions of the traffickers.
    The Department of Health and Human Services is running a 
major public awareness campaign to alert victims in the United 
States that help is available through a new hotline number. 
These positive steps must be continued and expanded until the 
problems are eliminated.
    Mr. Chairman, I join with you to monitor and assist 
governmental attention to the issue of human trafficking. This 
worldwide problem must be fought on two battle fronts, one 
internationally but most of all our own domestic side. The 
nature of this crime intertwines the two battles requiring 
equal attention to both fronts.
    I look forward to the testimony that we will gather today 
and I commend the efforts of all who challenge the perpetrators 
and assist the victims of this atrocious criminal activity.
    Thank you, Mr. Chairman and I yield back my time.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.007
    
    [GRAPHIC] [TIFF OMITTED] T7774.008
    
    [GRAPHIC] [TIFF OMITTED] T7774.009
    
    Mr. Burton. Thank you, Ms. Watson.
    As I introduce Chris Smith, let me say that there is nobody 
I have met in my tenure here in Congress that has worked harder 
on human rights issues than Chris Smith. He has worked hard on 
the slavery issues, worked hard on the people who have been put 
into gulags in China and elsewhere and there is nobody who 
works harder than Chris. We are happy you are here with us 
today, Chris.
    Mr. Smith. Thank you very much for your kind remarks and 
thank you for your leadership because as some of you may know, 
we sit next to each other on the International Relations 
Committee and there is never anything that separates us. We 
work together on these issues including human trafficking. It 
is no surprise that you are again taking the lead with this 
hearing and the good work you have done.
    There is a close correlation obviously between this and the 
good work you do on the abduction cases, particularly the 
hearing we had just the other day and you were very prominent 
in that. So I want to thank you for your leadership, as well as 
the ranking member with whom I have traveled and have a great 
deal of respect for.
    I would say to my colleagues very briefly that you and the 
ranking member have very adequately described the Trafficking 
Victims Protection Act of 2000 and the Reauthorization and 
Expansion Act of 2003. It is indeed comprehensive, it is 
landmark. It tries to give the tools to all agencies of 
government to vigorously prosecute those who commit these 
heinous acts of trafficking in human persons while 
simultaneously ensuring the women, and it is usually the women, 
are treated as the victims and provided safe haven and 
protective services, all while we work on prevention.
    Certainly the tools are there and I want to especially 
thank my good friend and former colleague, John Miller, soon to 
be Ambassador John Miller, for his leadership, for the fire in 
the belly that he has exhibited in carrying out his mandate as 
Director of the TIP office. He has been extraordinary.
    To our other distinguished witnesses, as well, thank you so 
much for your leadership and for doing so much.
    I would announce to the committee and I am sure you are 
aware, over a year ago, and President Bush never gets credit 
for this and it really bothers me, announced through a 
Presidential Directive, a zero tolerance policy when it comes 
to trafficking and that has had particular application in our 
military. There has been an ongoing effort both in South Korea, 
for our deployments in Bosnia and everywhere else in the world 
to ensure there is absolutely no complicity in trafficking and 
as a direct result of the policy enunciated by President Bush, 
Secretary Wolfowitz put out a memorandum January 30 that went 
into greater detail and a great victory was just realized in 
NATO on June 28 with a great assist from Ambassador Nicholas 
Burns in Brussels with a new zero tolerance policy for NATO. So 
these peacekeeping deployments and very often the traffickers 
as we know look for the men in uniform to sell, the Russians, 
the Moldavians, the others who have been trafficked, the 
Filipinos, and now NATO too has a zero tolerance policy. Next 
in line will be the United Nations peacekeeping so that they 
too will join the world to ensure there is absolutely no 
complicity in this egregious crime.
    I would ask that the statement or the broad outline of the 
policy that NATO has just approved be made a part of the 
record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.010
    
    [GRAPHIC] [TIFF OMITTED] T7774.011
    
    [GRAPHIC] [TIFF OMITTED] T7774.012
    
    Mr. Smith. Again, thank you.
    Mr. Burton. Thank you, Mr. Smith. Once again, I appreciate 
all the hard work you do and everybody should.
    My colleague, the young Mr. Pence from Indiana, who dies 
his hair gray so he will look more mature, is with us. He is 
very active in human rights issues. Mr. Pence, do you have an 
opening remark?
    Mr. Pence. Thank you, Chairman, for the courtesy of this 
invitation. This is an issue that I have admired your 
leadership on for many years and that of my other colleagues 
and the panel. I am grateful to have the opportunity to 
participate.
    Mr. Burton. Thank you.
    Without further ado, I would like to swear you in. We would 
like to keep the opening remarks to around 5 minutes if we can 
so we can get to the questions and answers as quickly as 
possible.
    [Witnesses sworn.]
    Mr. Burton. We will start with my former colleague, Mr. 
Miller.

  STATEMENTS OF JOHN MILLER, DIRECTOR, OFFICE TO MONITOR AND 
    COMBAT TRAFFICKING IN PERSONS, DEPARTMENT OF STATE; R. 
  ALEXANDER ACOSTA, ASSISTANT ATTORNEY GENERAL, CIVIL RIGHTS 
   DIVISION, DEPARTMENT OF JUSTICE; AND CHRISTOPHER GERSTEN, 
   PRINCIPAL DEPUTY ASSISTANT SECRETARY, ADMINISTRATION FOR 
 CHILDREN AND FAMILIES, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Miller. Thank you for having this hearing.
    I think there are thousands of victims throughout the world 
that thank you. If they knew that you were holding this 
hearing, they would get new hope. Every time you hold a hearing 
on this issue, you bring a spotlight and indirectly, sometimes 
directly, you are helping to rescue the victims and put the 
traffickers in jail.
    We are going to talk in this hearing about reports and 
figures and all that. I have had the privilege in the last 16-
17 months in this job of traveling to countries in different 
parts of the world and coming to realize that this is more than 
reports and figures, it is about individual human beings. When 
you meet with some of the people described in this last report, 
girls and boys like Khan, taken hundreds of miles from Laos to 
Thailand, dumped in a Bangkok embroidery factory working 14 
hours a day, beaten, industrial chemicals dumped on them; when 
you meet with now a young lady but formerly a teenager named 
Katia taken from the Czech Republic trafficked to the 
Netherlands, forced into brothels through the threat against 
her own child, forced to service hundreds and thousands of men, 
you understand why this is emerging as one of the premiere 
human rights issues of the century.
    It does extend to every country in the world. There is all 
kinds of slavery, domestic servitude slavery, child soldier 
slavery, forced labor slavery, camel jockey slavery and what we 
now believe is the largest form of slavery, sex slavery. It 
does reach more of the female gender. We estimate close to 80 
percent of the victims are women. Around half are children.
    The President, as you mentioned, last fall became the first 
world leader to speak out on this issue at the United Nations 
to urge nations to cooperate. It has been my privilege in the 
last year to wear a couple of hats, first, because of your 
efforts Congressman Smith and others, there is the Senior 
Policy Operating Group that was set up that I am privileged to 
chair that involves all the agencies of the U.S. Government 
involved in this.
    At the President's directive, every one of these agencies 
has come up with a strategic implementation plan to fight 
trafficking in persons as it is euphemistically referred to or 
slavery. Pursuant to those plans, you will hear more about 
this, you have the Department of Justice having tripled its 
prosecutions in the last 2 years, you have the Department of 
Health and Human Services reaching out in the four major cities 
trying with media campaigns to reach potential victims. You 
have the Department of Defense as Congressman Smith mentioned 
issuing a zero tolerance policy. You have this group 
coordinating when the President announced at the United Nations 
General Assembly a major initiative to fight trafficking in 
persons abroad, help the NGO's abroad in rescuing victims and 
caring for victims. These gentlemen to my left are going to 
talk more about that.
    Let me go in the remainder of my time to one of the State 
Department's focuses. Along with running a modest amount of 
programs abroad on protection and prosecution and prevention, 
we issue this annual report every year that you referenced. 
This report was required by you and I want you to know that it 
has had some results. Yes, the problem is huge, let us not 
underestimate it, but after this report which we discussed a 
year ago, countries in Tier 3 including some major allies like 
Greece and Turkey took some tremendously significant steps, law 
enforcement training programs, public service announcements to 
victims, prosecutions, convictions, new shelters, etc. This 
year in the months preceding this report, 24 new countries 
passed anti-trafficking in persons legislation. This past year 
there were almost 8,000 prosecutions around the world and 
almost 3,000 convictions.
    In the report this year, along with our traditional 
features, we have some new sections, heroes in the fight 
against trafficking in persons and Congresswoman Watson 
referred to the Tier 2 Watch List which Congress put in the 
reauthorization bill and I had some skepticism about but I 
think it is working very well because this Tier 2 Watch List is 
helping address the problem which you all recognized that there 
were Tier 1 countries that met minimum standards, Tier 3 they 
were make no significant efforts, Tier 2 making significant 
efforts, Tier 2 was getting bigger and bigger. This Tier 2 
Watch List allowed us to deliver a warning to countries that 
are in danger of falling to Tier 3, at the bottom of Tier 2. I 
think that is having an impact. You will see some very large 
countries are on the Tier 2 Watch List, Japan, India, Russia, 
for example.
    In the report this year there is also more law enforcement 
evidence. You mandated that. It is not easy to collect but 
there is far more information on prosecutions and convictions 
and sentences than we have had in the past.
    Last, a word on where we are going, new efforts. We hope 
this coming year, the Secretary of State, the President, we 
hope to focus more on the demand side of the slavery issue. 
Yes, there are source countries, many of them less developed, 
but slaves end up in advanced countries, in wealthy countries. 
We want to focus more on the destination countries and when it 
comes to demand, as the President said at the United Nation's 
General Assembly, we want to focus more on child sex tourism 
which is one of the major drivers of slavery. Again, we can 
work with countries where the sex tourist facilities are, the 
Cambodias, the Thailands, the Costa Ricas, the Gambias, but 
where are the tourists coming from? The tourists come from the 
Netherlands, Germany, the United Kingdom, the United States and 
Japan. So we want to focus on the demand side of trafficking in 
persons.
    It has been 4 years since this report was mandated. Let us 
be realistic. There is so much more to do. There are so many 
more victims to save and rescue, so many more traffickers to be 
thrown in jail, but in the last several years with the United 
States taking the lead, you are starting to see governments 
around the world awaken to this issue and pushed by NGO's 
starting to do some things leading to the abolition of slavery.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.013
    
    [GRAPHIC] [TIFF OMITTED] T7774.014
    
    [GRAPHIC] [TIFF OMITTED] T7774.015
    
    [GRAPHIC] [TIFF OMITTED] T7774.016
    
    [GRAPHIC] [TIFF OMITTED] T7774.017
    
    Mr. Burton. Mr. Acosta.
    Mr. Acosta. Thank you.
    Let me echo my colleagues' words and thank you for calling 
this hearing. It is so important to shed light on this issue as 
we search out and seek victims. One of the challenges we face 
is that too many Americans don't realize the existence and the 
magnitude of this issue, so hearings like this really are a 
great step toward calling attention to what is a critical 
issue.
    Technically, human trafficking is the acquisition or 
holding of human beings through the use of threat, of force, 
fraud or coercion. I think it is important to put the law aside 
and to try to put a human face on this. In my office, I have a 
picture I sometimes use when I am talking about trafficking in 
persons. It is a picture of a small room, not much larger than 
a twin bed. There are three walls, the fourth isn't even a 
wall, it is a ragged curtain that separates that room from the 
rest of the house. In this small room, one of the victims in 
one of our cases was held captive. The victim was a girl 
approximately 14 years old. She was smuggled into this country 
by men who brought her from Mexico. In that room, the same room 
where she slept every night, she was forced to have sex with up 
to 30 men per day, day after day after day. Then she slept 
there at night.
    Next to the small twin bed there is a night stand, the only 
other piece of furniture in this room. On the night stand there 
is a teddy bear. This 14 year old girl kept that teddy bear 
because that was what reminded her of her childhood. She no 
longer thought of herself as a child. Next to the teddy bear, 
the picture shows a roll of paper towels. That is human 
trafficking. It is evil and I don't use the word evil lightly. 
It is evil, it is hideous, it is modern day slavery and it 
takes place right here in America. As I said, too many 
Americans are aware neither of its existence or its magnitude. 
We have estimates that almost 15,000 individuals, as 
Congresswoman Watson mentioned, mostly women and children are 
trafficked into our Nation each year. Human traffickers are 
peddlers in this human misery and they seize their victims by 
threat, by trick and smuggle them across our borders in 
loathsome conditions often selling them from trafficker to 
trafficker, sometimes repeatedly.
    We at the Department of Justice over the past several years 
have dedicated substantial resources to prosecuting these 
traffickers and the results are beginning to follow. Since 
January 2001, we have charge 149 human traffickers, more than a 
tripling of the rate. This year alone we have charged 39 human 
traffickers and our conviction rate thus far is 100 percent, a 
testament to the men and the women in my criminal section who 
prosecute these crimes. We currently have 168 open trafficking 
investigations, a number which shows that the number of charges 
will increase.
    I think it is important to recognize that this is only a 
beginning. Fifteen thousand individuals are trafficked into the 
United States. We are proud that we have tripled our rate of 
prosecution but we must and we are doing much more. This year 
we have implemented an approach that sets up task forces in 
various cities throughout the country in cities where we think 
the trafficking is most likely to occur. We have established so 
far, four task forces and by the end of this year, we hope to 
establish well over a dozen task forces throughout the Nation.
    These task forces are critical because they allow us to be 
much more proactive, much more aggressive in seeking out those 
dark places where the traffickers lurk. The task forces rely 
heavily on State and local law enforcement. These are the 
police on the streets, the police who know their communities, 
the police that know those dark places where the traffickers 
lurk and who know those places where traffickers are likely to 
be that we must investigate and raid.
    These task forces also rely very heavily on NGO's because 
NGO's are critical to this effort. NGO's are not only service 
providers that help rescue and restore the victim but NGO's 
have a great and vast wealth of knowledge about the local 
communities, about where the traffickers may be found. NGO's 
are often the first people to whom a trafficker turns for help. 
Trafficking victims are fearful, they are disoriented. They are 
far from home, they don't speak the language, they are here 
without documentation, they are afraid. They are often going to 
turn to an NGO or to a faith-based group for help. So our task 
forces need to work with these faith-based groups.
    Let me say one thing though. Vigorous prosecutions are only 
a start. These convictions aren't going to heal the pain, the 
emotional scarring or the suffering that these women, these 
girls, these victims have been through. A victim-centered 
approach is critical. The work of my colleague at HHS, the work 
of service providers is critical but it is critical that our 
prosecutors at the Department of Justice also understand and 
implement and begin with a victim-centered approach.
    Victims typically are going to be distrustful. Interviewers 
and prosecutors who address this issue must be sensitive to 
victims' needs and must understand that unlike some victims of 
crime, trafficking victims may not immediately be ready to 
assist police. So our victim-centered approach requires 
prosecutors to talk to victims again and again to find out what 
the true story is. It requires prosecutors to work with HHS and 
with service providers to ensure that victims of these crimes 
are kept safe.
    Under our victim centered approach, it is the policy of the 
Department of Justice that individuals who have been subject to 
a severe form of trafficking as outlined in the TVPA are 
victims and they are to be treated as victims. That is what 
they are and they are entitled to all the protections and 
benefits of that statute.
    Our record on this front is very strong. To date, the Civil 
Rights Division has helped in the granting of 430 continued 
presence requests on behalf of victims. The Civil Rights 
Division and other law enforcement agencies have helped 518 
trafficking victims from 34 countries secure the benefits 
assured them under the TVPA. To ensure there is no slippage on 
this front in our prosecution of victims, I have formally 
directed that before any Civil Rights Division attorney makes 
any decision to decline continued presence or makes any 
decision to decline a law enforcement certification required 
under TVPA, that declination decision has to be forwarded to my 
office and to my Deputy Assistant Attorney General that 
oversees this so that we know if we are going to decline this, 
that we really mean to do that because victims need to feel 
safe and secure.
    Allow me to conclude by recalling President Bush's words. 
His words were alluded to before the United Nations. He spoke 
of another humanitarian crisis, a crisis spreading yet hidden 
from view and he warned the nations of the inherent evil in the 
abuse and exploitation of the most innocent and vulnerable, the 
victims of sex trade who see so little of life before they see 
the very worst of life on the ground of brutality and fear. He 
charged us with eradicating this evil.
    Try to picture this and return with me one last time to the 
small room, the small twin bed, the night stand with the teddy 
bear and the roll of paper towels. That picture tells us our 
mission given to us by President Bush to make sure that victims 
do not have to return to those conditions again.
    Thank you.
    [The prepared statement of Mr. Acosta follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.018
    
    [GRAPHIC] [TIFF OMITTED] T7774.019
    
    [GRAPHIC] [TIFF OMITTED] T7774.020
    
    [GRAPHIC] [TIFF OMITTED] T7774.021
    
    [GRAPHIC] [TIFF OMITTED] T7774.022
    
    [GRAPHIC] [TIFF OMITTED] T7774.023
    
    [GRAPHIC] [TIFF OMITTED] T7774.024
    
    [GRAPHIC] [TIFF OMITTED] T7774.025
    
    [GRAPHIC] [TIFF OMITTED] T7774.026
    
    [GRAPHIC] [TIFF OMITTED] T7774.027
    
    [GRAPHIC] [TIFF OMITTED] T7774.028
    
    [GRAPHIC] [TIFF OMITTED] T7774.029
    
    [GRAPHIC] [TIFF OMITTED] T7774.030
    
    [GRAPHIC] [TIFF OMITTED] T7774.031
    
    [GRAPHIC] [TIFF OMITTED] T7774.032
    
    [GRAPHIC] [TIFF OMITTED] T7774.033
    
    [GRAPHIC] [TIFF OMITTED] T7774.034
    
    [GRAPHIC] [TIFF OMITTED] T7774.035
    
    [GRAPHIC] [TIFF OMITTED] T7774.036
    
    [GRAPHIC] [TIFF OMITTED] T7774.037
    
    [GRAPHIC] [TIFF OMITTED] T7774.038
    
    [GRAPHIC] [TIFF OMITTED] T7774.039
    
    [GRAPHIC] [TIFF OMITTED] T7774.040
    
    [GRAPHIC] [TIFF OMITTED] T7774.041
    
    [GRAPHIC] [TIFF OMITTED] T7774.042
    
    [GRAPHIC] [TIFF OMITTED] T7774.043
    
    [GRAPHIC] [TIFF OMITTED] T7774.044
    
    Mr. Burton. Thank you, Mr. Acosta.
    Mr. Gersten.
    Mr. Gersten. Mr. Chairman and Ranking Member Watson, thank 
you for the opportunity to appear before you today to discuss 
the Administration for Children and Families' activities under 
the Trafficking Victims Protection Act of 2000. Under the act, 
ACF is responsible for certifying persons as trafficking 
victims and helping them access the benefits and services they 
need to rebuild their lives.
    Traffickers in the United States imbue their victims with 
incorrect but believable stories of their legal 
vulnerabilities. Traffickers tell victims that they are illegal 
immigrants and therefore, criminals who will be arrested and 
deported or imprisoned if they approach law enforcement agents. 
Traffickers threaten their victims and their families both here 
and in their home countries with physical harm, embarrassment 
and legal action. As a result, when victims do come in contact 
with law enforcement and judicial personnel, health providers 
and other people who would be in a position to assist them, the 
victims tend to adhere to the coaching of their captors and do 
not alert such persons of their plight.
    Outreach is clearly critical to our efforts to help 
trafficking victims and I would like to focus my short 
statement on two critical ACF outreach efforts, our public 
awareness campaign and our hotline.
    The first, the campaign to rescue and restore victims of 
human trafficking is designed to overcome the barriers the 
Federal Government has experienced in identifying and rescuing 
victims. The campaign is a call to action for people to contact 
the HHS Trafficking Information and Referral Hotline to report 
possible trafficking situations. The campaign has developed 
posters, brochures, fact sheets, educational materials and a 
trafficking Web site. With the chairman's permission, I would 
like to share a couple of posters with you.
    Here on the right we have four posters that have been 
distributed broadly across the country with the headline, 
``Look Beneath the Surface.'' These posters are designed to 
educate those who may come in contact with victims of 
trafficking with health service providers, with law enforcement 
personnel so that when they meet someone in a hospital or pick 
someone up on the street who seems bruised and battered, they 
ask the question, might this be a victim of trafficking. We 
believe this is the first line in the effort to communicate 
with the public, with the individuals who may come in contact 
with victims of trafficking but often think this is a street 
person, a homeless person or someone who belongs in the 
criminal justice system or someone who should be deported. We 
want that person to ask themselves is this a victim of 
trafficking and if so, to know there are service providing 
agencies that are available to contact.
    If you are interested, we would be happy to share with you 
and your colleagues the additional material that we developed 
for the campaign. We have a packet that has these separate 
posters, brochures and other material that we have available 
for all members of the committee if you like. We are also 
working on Spanish language posters and materials as well as 
materials in other languages. The campaign also is employing a 
coalition effort that targets intermediaries including law 
enforcement, health care and social service providers, faith 
and civil groups and other organizations that conduct outreach 
to populations vulnerable to trafficking.
    As a critical component of the campaign, the Department has 
established a nationwide toll free trafficking information and 
referral hotline. The hotline provides victims immediate crisis 
counseling enabling victims to get accurate information about 
their options. Victims and those calling on their behalf are 
referred to an organization in their immediate area trained to 
serve trafficking victims.
    I look forward to working with you and the Congress as we 
advance toward our goal of substantially increasing the rate at 
which the Federal Government identifies and assists victims.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Gersten follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.045
    
    [GRAPHIC] [TIFF OMITTED] T7774.046
    
    [GRAPHIC] [TIFF OMITTED] T7774.047
    
    [GRAPHIC] [TIFF OMITTED] T7774.048
    
    [GRAPHIC] [TIFF OMITTED] T7774.049
    
    [GRAPHIC] [TIFF OMITTED] T7774.050
    
    [GRAPHIC] [TIFF OMITTED] T7774.051
    
    [GRAPHIC] [TIFF OMITTED] T7774.052
    
    Mr. Burton. First of all, let me say I think what you are 
doing with these posters and everything is extremely important. 
Unfortunately, we live in the television age and a lot of these 
people that may be in involuntary servitude as sex slaves or 
whatever it might be, wouldn't have a chance to see these 
posters. Do you do any television advertising?
    Mr. Gersten. We have developed a public service advertising 
campaign and have actually worked with television spots that 
have been developed by the United Nations and gotten permission 
from the United Nations to use these spots. They have now 
played in 31 cities across the country. This campaign is just 
about 6 to 8 weeks old but we think it is a very important 
component. We are able to track calls to our hotline in 
relation to the number of public service spots that are playing 
across the country. You are quite right, for contacting victims 
themselves, it is quite important that we be on television. The 
public service spots are beginning as we create task forces and 
coalitions around the country, we are asking those coalitions 
to take our public service spots and walk them into local 
television and radio stations.
    Mr. Burton. I think that is great. One of the things Mr. 
Acosta and you at HHS could do would be to contact the major 
networks and maybe even send a letter to as many of the major 
affiliates as you possibly can across the country, maybe even 
with a copy of some of the public service announcements you are 
talking about. I would be very happy, and I am sure Ms. Watson 
and Congressman Smith would be as well, to join you in that 
effort to make sure these public service announcements are 
shown on a regular basis because when you see these posters, 
they are very effective but as I said before, I doubt that the 
people who might be forced into this kind of situation will 
ever see those.
    Mr. Gersten. I thank you for that offer. We will work with 
you and your staff on that.
    Mr. Burton. And if you need more money for that, I am sure 
Chris and I and Ms. Watson would be very happy to go to the 
appropriators and beat them over the head to try to get some 
money for that.
    I saw you had some $30 million that you are spending on the 
program, is that right?
    Mr. Gersten. It is $10 million for HHS and how much is 
Justice spending?
    Mr. Acosta. $10 million at the Department as well.
    Mr. Burton. John, are you guys involved in this at all?
    Mr. Miller. We are not involved in that particular effort. 
The United Nations spots that were referred to were funded with 
your taxpayer dollars and those spots have been translated into 
other languages and we are seeing they are played in other 
countries around the world.
    Mr. Burton. Public service announcements won't cost 
anything and I think all of the affiliates and the major 
networks are required to show so many public service 
announcements. I think the FCC requires that. Since we have 
17,500 people a year coming into the country that we know of or 
thereabouts, it seems to me this would be a real deterrent. If 
I were a trafficker, I think the one thing I would fear most 
would be for somebody I brought into the country illegally or 
had in involuntary servitude might see television and see that 
kind of an ad. Now that we have multilingual television 
programs, we have the Spanish-speaking networks as well as 
others, I would think it would be something that would really 
get through to a lot of these people.
    Do you have enough resources to deal with the problem right 
now or do you need more and if so, how much?
    Mr. Gersten. From the Administration for Children and 
Families' point of view, we are in the early stages of this 
campaign. We have built grassroots efforts with hundreds of 
NGO's in four cities, Atlanta, Philadelphia, Tampa and Phoenix. 
We will roll out these grassroots efforts to a dozen more 
cities this year and hopefully another 10 or 20 cities next 
year. My answer would be it is too early to know at this point 
if there is a need for more resources. We have to be very 
aggressive about building grassroots coalitions and about 
getting public service television and radio. When we come back 
next year, if we think the public service is inadequate but are 
comfortable with the level of our organized activity, then we 
will definitely talk about asking for more money but at this 
point, it would be premature.
    Mr. Burton. The one thing that kind of bothers me a bit 
about what you said is not the effort that has been made thus 
far, but you only have six or eight cities right now?
    Mr. Gersten. Correct.
    Mr. Burton. I know Miami, Chicago, Indianapolis, LA and a 
whole host of places that I am sure need exposure as well. That 
is why if you haven't had a chance, you won't have a chance to 
expand the NGO relationship between now and the next 6 months 
or so. It seems to me the television public service 
announcements would be a great step in the right direction 
until you get all that put in place.
    Anyone else?
    Mr. Acosta. Mr. Chairman, the Department of Justice 
receives $10 million that it distributes in grants in addition 
to the resources we have at the Civil Rights Division in the 
form of our prosecutors. Certainly in reference to your 
invitation to issue a joint letter between HHS and Justice and 
perhaps members of the committee, as appropriate, to encourage 
public service announcements, Justice would be more than happy 
to participate in that.
    In addition to that, we received a one-time allocation this 
year of $1 million to be used in training. I think the training 
of State and local law enforcement cannot be underestimated. So 
far this year, we have engaged in 99 trainings of State and 
local law enforcement. Our 100th training will be next week and 
will be a major conference that will pull together prosecutors 
from 27 Federal U.S. attorney districts, more than 27 with 
State and local law enforcement and NGO's. We are not spending 
the entire amount on the conference, we have some we are 
holding in reserve because after the conference our vision is 
after they have come and spent 3 days, learning about the 
issue, educating themselves on the issue, then follow that up 
with local task forces and local conferences. So it is not a 
one-time event but these task forces really become real efforts 
where individuals coordinate, share information and proactively 
approach this.
    The resources at this point are adequate. We need to get 
the word out through HHS' public service campaign and through 
hearings like this so that more Americans realize what is truly 
going on.
    Mr. Burton. I am going to yield to Ms. Watson now but we 
will draft a letter and Ms. Watson will join us in that, I am 
sure, and Mr. Smith, and we will ask you as officials at the 
various agencies to sign on the letter and we will try to get 
that out to as many affiliates as well as the major networks as 
possible. It would be great to see some of these commercials 
and you can bring some of those rats to justice.
    Ms. Watson.
    Ms. Watson. I was just wondering, are there any examples of 
sanctions against any countries due to their listing in the TIP 
report?
    Mr. Miller. Congresswoman Watson, last year there were 15 
countries in Tier 3, the first year that the sanctions became 
possible. The good news was that of the 15 countries, the 10 
with which we had civil relations, took significant steps so 
that by September as the law provides, the Secretary was able 
to recommend to the President that they be raised from Tier 3. 
There were five countries that remained in Tier 3 and those 
countries unfortunately are countries that either already had 
been sanctioned or I can't say that sanctions would have any 
noticeable effect. I think the main impact last year was not 
the sanctions, it was the threat of sanctions coupled with the 
engagement that produced the results.
    Ms. Watson. I was sitting here going through the report and 
noticing that they have been able to capture the traffickers 
and so on. Is there any kind of educational programs going on 
in these several countries that would focus on motivation to do 
this? Is it all about greed? Is it all about lack of morals and 
ethics? Is it just a common criminal disregard for humanity? 
Where are we going with that?
    Mr. Miller. The motivations are certainly complex. I think 
you are right, greed is a big part of it, lust in some cases, 
poverty is a driving force, the attraction that lures people 
from poor countries to be fooled, to be deceived, they get the 
pictures on television from some of the wealthier countries, 
that is a problem. Organized crime, by itself, is a factor.
    This is not a complete answer to your question but in 
looking at education around the world, I think in general, 
Congresswoman Watson, education has focused on reaching out to 
potential victims. We have helped a lot of countries startup 
such programs, whether it is hotlines or brochures or going 
through the schools or as I saw in Cambodia, taking out videos 
to the villages.
    Where we need to have more focus is education on the demand 
side. So far there has been very little education directed at 
the customer predators. This coming year, one of the things my 
office hopes to do is come up with some ideas for education on 
the demand side and see if we can spur such efforts.
    Ms. Watson. Here in the United States, our problem is the 
oldest profession in history and there is a lot of money to be 
made. In the State of California, we start to punish the johns 
when we catch them. I am wondering if across this country we 
can't do more in focusing on our sex trafficking. Some brothels 
are legal in some States but we have a lot of work to do right 
here. Should we succeed, it could be a role model for other 
countries too. Can you comment?
    Mr. Hamilton. Yes. Others may want to comment on that but I 
do want to comment on that. What you describe as the oldest 
profession, I would say it is the oldest form of abuse is what 
it is. The evidence is very clear that this is not a profession 
in the way other occupations are. The evidence is very clear 
that a majority of the people, mainly women engaged in this 
profession, are suffering assaults, rapes and harassment and 
want to escape.
    You mentioned something very interesting to me. That is 
prosecuting the johns. I think in the past, speaking worldwide, 
the efforts as I look at other countries, have been mainly on 
prosecuting the victims, prosecuting those who have suffered in 
prostitution but there are starting to be some changes. You see 
a country like Sweden, for example, that has just passed a law 
that has decriminalized the conduct of the women engaged in 
prostitution and criminalized the conduct not only of the 
trafficker, the pimp, the brothel owner, but the customer. They 
had some well publicized prosecutions of customers. They are 
trying to get to the demand side and interestingly enough, in 
Sweden, the evidence shows the last year the number of 
trafficking victims coming into Sweden from abroad has gone 
down significantly. All of this tells us we have to look at 
both sides of this equation.
    Ms. Watson. Just one more question, if I may. Have we 
considered and have we done an international conference on 
world sex trafficking and kidnapping?
    Mr. Miller. We had a conference just a little over a year 
ago.
    Ms. Watson. Under the auspices of the UN?
    Mr. Miller. No, this was under the auspices of the State 
Department, Congressman Smith spoke and the auspices of several 
NGO's. We had people from over 100 countries, 400 people from 
around the world and they were workers. These were not 
primarily government officials, these were people out in the 
trenches. They came and exchanged ideas. I think it was 
helpful. I have to tell you at this point, conferences are good 
but I think we are at the stage when we look at countries in 
this report, we are now expecting more than conferences. We 
want them to get on with the prosecutions, get on with 
protecting victims, get them to get on with education 
prevention.
    Ms. Watson. Thank you, Mr. Chairman.
    Mr. Burton. I have one more question after Mr. Smith. Mr. 
Smith?
    Mr. Smith. Thank you, Mr. Chairman.
    Let me thank you all for your fine work. The presentations 
and the material is outstanding.
    On conferences, I think Ms. Watson does make a good point. 
There are, as you know, a number of conferences. The OSCE, with 
which I work very close, has been able to get a number of the 
55 countries in Europe, Western Central, including Russia, to 
focus on this issue. We will be holding an OSCE parliamentary 
assembly conference in Greece in the fall. It will be focused 
on best practices and what we can do with lawmakers to ensure 
that our laws protect victims and prosecute the perpetrators of 
these crimes. So the point is well taken that it is time for 
action but we can keep learning and expanding our knowledge and 
best practices base.
    Frankly, the second bill, Mr. Chairman, really was in part 
an expansion act because some of the things we missed the first 
time around we threw into the second and we heard from all of 
the NGO's, we threw out the net as far as we could and the 
administration and thank you, because you all provided all of 
us working on that an enormous amount of insight that went into 
that second bill.
    I do have a couple of questions with regard to 
prosecutorial discretion, Mr. Acosta. My U.S. Attorney, 
Christopher Christie in New Jersey has been very aggressive in 
going after traffickers and protecting women. He has broken up 
recently a ring where some 30 Russian women were held in 
captivity. They have been protected now and released while the 
criminals are in the process of being held to account and here 
have been many others he has had success in and ongoing 
investigations.
    It seems to me because I do talk to a lot of U.S. Attorneys 
that not everyone gets it. I know that John Ashcroft has 
admonished the U.S. Attorneys a number of times when they have 
the ability to decide what cases to proceed with or not, 
sometimes there could be a lax enforcement or focus on this. 
What can be done to ensure that in each of the locals, every 
U.S. Attorney. I know the task forces have to help to raise 
everybody's consciousness about this but what can be done to 
really make sure this is done today without further delay?
    Mr. Acosta. As an initial matter, let me say that the 
Attorney General since as early as March 2001 has been speaking 
out on this issue. It is an issue of high priority, an issue on 
which he has held several press conferences. His priorities 
have been conveyed to the U.S. Attorneys. I have met with the 
U.S. Attorneys through their hierarchy, through their Civil 
Rights Subcommittee and emphasized the importance of this to 
the Attorney General, to the administration and they get it.
    At the conference that is coming up, we have invited 
representatives from over 27 U.S. Attorneys offices including 
several U.S. Attorneys who will be attending this conference. 
For us, it is really a crucial conference because it is the 
first time we are bringing U.S. Attorneys together with local 
police and NGO's for a 3-day period to talk about trafficking 
and to talk about what trafficking is and how important it is 
that we prosecute. So it will be a spring board not only for 
task forces, but for more informal mechanisms where U.S. 
Attorneys will then return to their jurisdictions and redouble 
their efforts. As I said, we have already seen a tripling of 
the prosecution rate with better numbers for this year but this 
will be a springboard for them to return and redouble their 
efforts.
    Let me also go back to the point I made about training. 
With 99 trainings so far this year, we are putting a lot of 
effort into the training because it is not just U.S. Attorneys. 
In New Jersey, there are very good relationships between the 
U.S. Attorneys Office and various faith-based groups. That 
relationship with NGO's is also critical.
    Finally, a bit technical but very important is something we 
call a blue sheet which is basically a set of instructions for 
U.S. Attorneys on the degree to which they need to notify main 
Justice when they come across various types of criminal 
offenses. A recent change in the blue sheet about a year ago 
now requires U.S. Attorneys to notify main Justice, to notify 
my office if they become aware of a potential trafficking case. 
So that allows us to centralize and to emphasize this issue.
    Mr. Smith. Mr. Gersten, in terms of the benefits side, is 
there sufficient housing capacity available for those women if 
they need shelter? I know you are working in your task forces 
with the NGO's. I know Catholic Charities, for example, has 
really stepped up to the plate but they are only one of many 
others who have done so. The $10 million and the money we have 
talked about in the authorizing bill and the appropriations 
side, frankly with a good faith guess, we believe very strongly 
that number would have to ratchet up significantly.
    I would hope, and following on what the chairman said 
earlier, as the need arises, notwithstanding OMB's red pen, let 
us know what is truly needed. We had a situation on the foreign 
aid side a couple of years ago when I offered an amendment on 
the floor in the foreign ops bill to fully fund the $30 million 
authorized in the Trafficking Victims Protection Act and it 
passed overwhelmingly, got into conference with the Senate and 
all of a sudden it was whittled down to about $22 million 
because there wasn't an absorption capacity.
    I know and I know soon to be Ambassador Miller knows there 
is no doubt shelters abroad and other kinds of interventions 
are crying out for dollars. We just have to be a little 
creative and make sure we find them but do we have the 
resources, getting back to the chairman's original question, 
and how is that going in terms of getting the services out to 
people?
    Mr. Gersten. We have not had a problem yet with inadequate 
housing but there is a possibility as this program grows that 
we will face new challenges and will have problems we don't 
face at this time. This program is growing a step at a time. We 
just launched the hotline on April 1, 2004. This campaign is 
only 3 months old, so we are seeing an increase each month in 
the number of calls to the hotline and ask the hotline grows, 
as we get more public service television, and as the coalitions 
grow, we are going to identify more and more victims. As more 
victims are certified, we may at some point down the road come 
back and say we need more resources or we are going to need 
more resources but at this point, we have not gone to the limit 
of the resources that are available.
    Mr. Smith. Let me compliment you on the creativity and I 
think what will be the effectiveness of this approach.
    I do have one other question about the victims' families. 
One of the things that we know for certain, Mr. Miller, you 
might want to comment on this, is the retaliation against 
family back home a problem when a woman is freed in the United 
States or any other country or destination. As you know, we put 
into law the ability to bring their families to join the victim 
here in the United States. Has that been utilized yet? Have we 
gotten many women or men who have sought to bring over their 
families? How is that proceeding?
    Mr. Acosta. Congressman, the answer is yes it has been 
utilized. I don't recall the exact figure but I know in several 
instances, families have received TDs or are in the process of 
receiving them. I believe it is a T-2, T-3 and T-4 as opposed 
to T-1.
    Mr. Smith. Let me again compliment you on the task force 
idea. I think the absolute vital importance of bringing local 
law enforcement into the equation--Philadelphia was I heard a 
resounding success. I am sure each of these rollouts will be 
very successful. It is part of the learning curve and getting 
police fully engaged at the local level is absolutely critical 
if we are going to succeed.
    I would ask Mr. Miller to comment. One of the drawbacks we 
found or one of the hindrances we found to passage originally 
was the idea of having sanctions. I think this idea of having 
smart sanctions naming countries has proven itself and perhaps 
we can apply to other areas of human rights law where people 
have been reluctant to name names because there was vigorous 
opposition to that before the bill was passed in 2000 and 
linking it to the withholding of non-humanitarian foreign aid. 
Of course the humanitarian aid we want to have that flow 
unfettered.
    In your view, Mr. Miller, if this proves when you have a 
smart sanction focused and you have a vigorous implementation, 
and I want to say again how grateful all of us who worked on 
this legislation are to the Bush administration for so 
faithfully implementing this and for taking it so serious. It 
is making a difference. Our Ambassadors are our representatives 
in country x, y and z and so many of them have made this a 
cause for which they are deeply committed. I wondered if you 
would comment on the smart sanctions idea?
    Mr. Miller. I think you are absolutely correct that 
Congress was very wise to include sanctions in the original 
legislation, to continue it in the reauthorization. I think the 
threat of sanctions provides a very useful tool. It is not the 
only tool. You have to have diplomatic engagement, you have to 
have NGO's that are aggressive, you have to have a lot of 
things but it really helps to focus the mind when you have 
that. I think adding the Tier 2 Watchlist further helps to 
focus minds on this issue.
    Mr. Burton. Let me just conclude the questioning of this 
panel. I was reading this National Geographic article which was 
from the Department of State which says this gentleman, if you 
want to call him that, Milorad Malakovic is in Bosnia and he 
says, is it a crime to sell women, they sell footballers, don't 
they? He says in this article that the United Nations 
international police forces in Bosnia and visa and immigration 
officials have been among his most valued customers. What is 
being done for instance in places like Bosnia where we are 
giving a great deal of aid and assistance to the various 
governmental agencies there? What is being done in those areas 
to clean up the public officials, policemen and immigration 
officials who are participating in this kind of activity. In 
addition to trying to get these people arrested and put out of 
business, what about the people that are in government? Are we 
doing anything about that?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.053
    
    [GRAPHIC] [TIFF OMITTED] T7774.054
    
    [GRAPHIC] [TIFF OMITTED] T7774.055
    
    [GRAPHIC] [TIFF OMITTED] T7774.056
    
    [GRAPHIC] [TIFF OMITTED] T7774.057
    
    [GRAPHIC] [TIFF OMITTED] T7774.058
    
    [GRAPHIC] [TIFF OMITTED] T7774.059
    
    [GRAPHIC] [TIFF OMITTED] T7774.060
    
    Mr. Miller. Government complicity, if you look around the 
world, all the causes when I was listing the causes for 
Congresswoman Watson, I should have mentioned government 
complicity. In your legislation you say that should be a 
criteria in judging countries. We name governments, we say 
which governments in which we think there is complicity.
    Mr. Burton. Are we doing anything about it with those 
countries? I heard what Chris said about sanctions and that 
sort of thing.
    Mr. Miller. That is one of the key criteria in deciding 
whether a country goes into Tier 2 Watchlist and Tier 3. Our 
embassies are instructed when they carry the flag on slavery to 
focus on the complicity issue. In the conversations I have had 
with our Ambassadors, I think they are doing that, Mr. 
Chairman.
    Mr. Burton. Thank you very much.
    We will now go to our next panel. I really appreciate your 
testimony and we will probably have you back. We will be 
sending you that letter. We are all going to sign it and if you 
will sign it, we will see if we can't work with you to get that 
out.
    Mr. Miller. As you know, I like to stay for complete 
hearings and you have a distinguished panel of NGO speakers 
that I can learn from. Somebody from my staff will be here. 
This is one of those rare occasions where I have to go to 
another meeting and I hope you will excuse me.
    Mr. Burton. No problem.
    Our next panel consists of: Mr. Charles Song, director, 
legal services program, Coalition to Abolish Slavery and 
Trafficking; Ms. Michele Clark, co-director, Protection 
Project, Johns Hopkins University School of Advanced 
International Studies; and Mr. Derek Ellerman, co-executive 
director, Polaris Project.
    [Witnesses sworn.]
    Mr. Burton. We normally start from my left to right but 
since Ms. Clark is the prettiest of the three of you, we will 
start with her.

 STATEMENTS OF MICHELE CLARK, CO-DIRECTOR, PROTECTION PROJECT, 
   JOHNS HOPKINS UNIVERSITY SCHOOL OF ADVANCED INTERNATIONAL 
   STUDIES; CHARLES SONG, DIRECTOR, LEGAL SERVICES PROGRAM, 
    COALITION TO ABOLISH SLAVERY AND TRAFFICKING; AND DEREK 
        ELLERMAN, CO-EXECUTIVE DIRECTOR, POLARIS PROJECT

    Ms. Clark. I accept your compliment with gratitude. Thank 
you.
    It is an honor to be before you today. I am Michele Clark, 
the co-director of the Protection Project of the Johns Hopkins 
University School of Advanced International Studies. Over the 
past 2 years, members of our staff have traveled to over 30 
countries on five continents on behalf of child victims of 
trafficking in the jungle regions of Peru, of women in tiny 
villages in Moldavia, of women enslaved in the cabaret cultures 
of Cypress and women, men and children in the neighborhoods of 
Washington, DC, Atlanta, Chicago and San Francisco. I would 
like to thank this committee for your vocal support of the TVPA 
and your concern evidenced by this hearing that this act be 
fully and efficiently and expeditiously implemented.
    Trafficking in persons continues to be complex. I would 
like to talk about some misperceptions about trafficking as 
well as some policy concerns that remain necessary to be 
addressed. Despite the excellent campaigns of the Department of 
Health and Human Services, there is still a lot of confusion 
surrounding this issue globally and within the United States. 
We still tend to confuse human trafficking with smuggling which 
puts in danger of feeling less sympathy for the victims and 
thinking instead that they are criminals complicit in what 
happens to them. We remain ignorant about domestic servitude in 
our own cities. We find it hard that this kind of slavery could 
exist or be perpetrated by our own neighbors. We tend to 
believe that if there is trafficking it is for sex and as Ms. 
Watson stated, because it is the world's oldest profession, why 
should we worry about it?
    We find almost impossible to understand that a clandestine 
brothel can exist in an affluent suburb right where we might 
live. If we do pause long enough to consider that trafficking 
could be real, we associate it with large ports of entry and 
border States. We don't recognize that the trafficking trends 
in this country have shifted to the Midwest, the Northwest, New 
England and the Southwest. According to the excellent report 
put out by the Department of Justice assessing U.S. Government 
efforts to combat trafficking, there have been investigations 
in all but four States in this country. Finally, we tend to 
believe that trafficking in this country is limited to foreign 
men and women, boys and girls. We are very reluctantly ready to 
admit that this could happen to our own.
    What should we do? Public awareness notwithstanding, 
outreach not withstanding, the work ahead is still long and 
tough. I would like to make some comments and express concerns 
and let you know some recommendations that we have of 
particular relevance to public policy.
    First of all, I would like to underscore the desperate need 
for committed, deeper, more intense work in the area of victim 
identification. We have visited shelters, we have visited 
countries where shelters have been funded but where they remain 
empty with people scratching their head in confusion wondering 
where are the victims. We look at the statistics of individuals 
served in this country and compared to the numbers, they are 
low. The efforts are good, the organizations work very hard. We 
need to ask the right questions. If we don't, we run the risk 
of several severe consequences.
    The first is that without accurate and comprehensive victim 
identification, the sense of urgency required to combat 
trafficking in persons will diminish. I am concerned that 
reports of empty shelters and limited services will make donors 
and funders question the expenditures and will look at limiting 
funds rather than wondering how can we best infiltrate the 
areas where we know these problems exist.
    The benefits of proper victim identification are multiple. 
It ensures rapid intervention, ensures quick recourse and 
rescue. It has to include two main components obviously raising 
the level of awareness of the full extent of the problem within 
different communities but it has to go deep into the indigenous 
ethnic areas where we know victims of trafficking to be, in the 
language expressed by the representatives of that very 
community so that in addition to information, there will be an 
element of trust strong enough to bring the victims out.
    This leads me to my next point which is the need to expand 
our notion of partnerships and to look at what our own 
legislation says about that. I have traveled this country and 
overseas and I am so impressed with the work of community based 
organizations and the expanded NGO community. However, in an 
analysis of funding grants to NGO's for trafficking projects in 
this country of 40 grants awarded in 2002 and 2003, only four 
have been given to faith-based organizations. In its public 
relations campaign, the Department of Health and Human Services 
indicates that among its strategies includes the placement of 
notices in religious media. They recognize the role of that, 
however, the funding has not followed the recognition that is 
perceived in some other areas.
    We have noticed an interesting thing when we travel. 
Although some shelters remain empty, faith-based shelters, 
whether it is run by Peruvian nuns in Lima, a Russian orthodox 
priest who got his diocese to fund a building in Cyprus, these 
are full. I would like to suggest several reasons for their 
success. They conduct active outreach to the communities where 
they know they will find victims. They are trusted by the 
victims because they speak the same language and are often from 
the same cultural background. They allow for longer stays and 
in many cases, several years, allowing not only for immediate 
recovery but for deep emotional healing.
    My time is running out. I am also concerned that to 
substantiate some of the claims I have made, I would also 
encourage the monitoring and more full implementation of 
Section 12(a) of the Trafficking Victims Protection 
Reauthorization Act in which the President requests there shall 
be carried research included by providing grants to NGO's as 
well as to relevant U.S. Government agencies and international 
organizations. This research will include economic causes and 
consequences of trafficking, the effectiveness of programs and 
I would say we should really examine the role of the faith-
based organizations in some of these initiatives and the 
interrelationship between trafficking persons and global health 
risks.
    I could obviously go on but I will allow these excellent 
witnesses to speak and thank you again so much for your 
consideration.
    [The prepared statement of Ms. Clark follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.061
    
    [GRAPHIC] [TIFF OMITTED] T7774.062
    
    [GRAPHIC] [TIFF OMITTED] T7774.063
    
    [GRAPHIC] [TIFF OMITTED] T7774.064
    
    [GRAPHIC] [TIFF OMITTED] T7774.065
    
    [GRAPHIC] [TIFF OMITTED] T7774.066
    
    [GRAPHIC] [TIFF OMITTED] T7774.067
    
    [GRAPHIC] [TIFF OMITTED] T7774.068
    
    Mr. Burton. Thank you, Ms. Clark. We will be asking 
questions in just a minute.
    Mr. Song.
    Mr. Song. Thank you for the pleasure and honor of speaking 
with you this afternoon on behalf of non-governmental 
organizations working to combat trafficking and the thousands 
of survivors of trafficking and their families that are working 
hard to rebuild their lives. I would also like to commend 
Chairman Burton and Congresswoman Watson for their leadership 
in championing the rights of survivors of trafficking.
    As the staff attorney at the Coalition to Abolish Slavery 
and Trafficking, I have been privileged to work collaboratively 
with non-governmental organizations, pro bono attorneys and law 
enforcement officials to ensure that survivors of trafficking 
receive comprehensive legal services and social services. Since 
its inception in 1998, CAST has been dedicated exclusively to 
assisting all victims of human trafficking and modern day 
slavery and working toward ending all instances of such human 
rights violations.
    CAST achieves its mission by providing comprehensive social 
and legal services to victims, conducting training and advocacy 
to improve survivors' access to services and resources. CAST 
has been a trailblazer since its establishment by creating a 
social service model tailored to the needs of trafficking 
survivors and drafting comprehensive training curricula with 
its partners to provide practitioners with the tools to better 
serve trafficking victims. The latest milestone in CAST's 
continued leadership in the anti-trafficking movement is the 
opening of the first shelter for trafficking survivors in the 
country.
    This afternoon, I would like to highlight key portions of 
the 2004 Trafficking in Persons Report and convey our 
recommendations on the way the U.S. Government can further 
strengthen its pioneering efforts to combat trafficking and 
assist victims of trafficking both at home and abroad.
    First, we urge the U.S. Government to amend and improve 
implementation of the Victims of Trafficking and Violence 
Protection Act of 2000. Second, we urge the Government to 
expand efforts to prevent trafficking from source countries. 
Third, we urge the Government to increase its collaborative 
efforts with non-governmental organizations nationwide and 
worldwide that directly serve victims of trafficking.
    In 2000, thanks the wisdom and leadership of Congress and 
anti-trafficking advocates nationwide, the VTVPA was passed to 
prosecute traffickers, protect victims of trafficking and 
prevent further trafficking. This landmark legislation 
recognized that survivors of trafficking urgently need 
protection for themselves and their families in order to 
cooperate in a Federal investigation and prosecution.
    Today, we have discussed a number of continued presence 
request granted and certification requests granted. Curiously 
we have failed to discuss the number of the most important 
VTVPA benefit granted, visas. Of the approximately 800 or so 
visa applications that have been submitted thus far, only 371 
have been granted. This number, especially in light of the fact 
that 14,500 or approximately 15,000 persons are trafficked into 
the United States each year is a very disturbing figure. These 
numbers indicate that less than 3 percent of the estimated 
15,000 victims trafficked into the United States every year are 
provided this critical victim protection.
    When we consider this figure to be an underestimate, the 
portion of victims receiving assistance is even smaller. 
Current officials have set trafficking as a top priority for 
its government. If the United States is to continue leading the 
struggle to end trafficking, it must and can do better. Our 
recommendation is to amend and improve implementation of the 
benefits provisions of the VTVPA.
    CAST commends the U.S. Government on its outreach campaign 
to raise awareness of trafficking in the United States. As the 
wealthiest nation in the world, the United States is a major 
destination country with its alluring promise of the American 
dream, yet the TIP Report does not mention how the U.S. 
Government works with its embassies and consulates worldwide to 
provide information in various languages about workers' rights 
and immigrants' rights to all foreign nationals applying for a 
visa to enter the United States. Many trafficking victims 
receive inaccurate information from their traffickers before, 
during and after enslavement and many are threatened with 
inaccurate information to prevent them from escaping.
    We at CAST have seen many instances where the very 
knowledge of one's rights in the United States could have saved 
a slavery victim from further abuse and possible death. Victims 
usually do not self identify as victims of trafficking because 
they are isolated, threatened and live in fear for their well 
being under the thumb of the traffickers. In fact, this lack of 
self identification as victims of trafficking is one of the 
biggest obstacles in discovering and identifying victims of 
trafficking. Once they become aware that what is being done to 
them is a violation of their rights, it will be easier for them 
to come forward to denounce their traffickers.
    Conferences have been useful forums for practitioners of 
all backgrounds and ideologies where they congregate to 
exchange new ideas, best practices and lessons learned so that 
innovative programs will be replicated and tailored to meet the 
needs of victims enslaved in any U.S. State or country in the 
world. We would like to encourage the U.S. Government to 
organize international conferences open to all practitioners at 
home and abroad to allow for transparent and free flowing 
information and resources so that victims worldwide will be 
served in the most effective and efficient manner possible.
    As the number of trafficked people grows exponentially and 
traffickers become more savvy in skirting law enforcement, it 
is critical that governments collaborate closely with non-
governmental organizations to find and assist victims. 
Furthermore, government estimates of the number of people 
trafficked into the United States every year have changed from 
50,000 in 1999 to 18,000 to 20,000 in 2003. In 2004, the 
estimate was revised further to 14,500 to 17,500 a year citing 
methodology changes rather than a decline in trafficked 
persons. CAST and many of the NGO's working in the field 
believe this number does not fully capture the scope of the 
trafficking problem in the United States and are concerned that 
trafficking may be construed as a waning problem.
    While we recognize the difficulties associated with 
measuring this virtually invisible underground activity, we 
urge the Government to apply more consistent and accurate 
measurement tools to quantify this increasingly ubiquitous 
problem that could be as close to the average person as the 
neighboring home.
    On behalf of CAST and other NGO's working to eradicate 
trafficking and assist victims of trafficking, we praise the 
work of the U.S. Congress in addressing one of the most 
egregious human rights violations in the world today and look 
forward to continuing to collaborate closely with Members of 
Congress to protect survivors and abolish human trafficking in 
all of its forms.
    Thank you.
    [The prepared statement of Mr. Song follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.069
    
    [GRAPHIC] [TIFF OMITTED] T7774.070
    
    [GRAPHIC] [TIFF OMITTED] T7774.071
    
    [GRAPHIC] [TIFF OMITTED] T7774.072
    
    [GRAPHIC] [TIFF OMITTED] T7774.073
    
    Mr. Burton. Thank you,
    I have been advised by my staff that we are going to have 
between seven and eight votes starting between 4 and 4:30 p.m., 
so I want to make sure that we hear our panel and have time for 
questioning, so we will try to move along as quickly as 
possible.
    Mr. Ellerman.
    Mr. Ellerman. Thank you for convening this hearing on 
modern day slavery and for giving me the opportunity to share 
with you our experience in combating trafficking in the United 
States.
    I want to begin with a personal note of thanks. We work 
every day with women in the sex trafficking networks, we work 
with women who have been brutally abused, who have been raped, 
who have been threatened with death and many of whom have very 
little hope or very little trust. It means a tremendous amount 
to me to be able to say to them that my government does care 
about their situation. I know that is not something that can be 
said in every country, so I want to thank you for today 
demonstrating again your commitment to me and to all the 
victims with whom we work.
    Polaris Project is a multicultural, grassroots, nonprofit 
and committed to combating sex trafficking. We are based in 
Washington, DC, and will be opening offices in New Jersey and 
in Tokyo, Japan in the fall. In the D.C. area, we operate the 
Greater D.C. Task Force Against Trafficking in Persons working 
closely with law enforcement to identify trafficking operations 
in the sex industry. Our multicultural staff conducts outreach, 
providing information on our 24 hour hotlines in Korean, Thai, 
Spanish and English. In partnership with the Metropolitan 
Police of D.C., we operate a Sex Trafficking Assessment Team 
that accompanies the MPDC Prostitution Unit on raids of 
brothels to conduct culturally sensitive victim assessment 
services.
    Many people have very little understanding of the enormity 
and the brutality of sex trafficking in the United States. When 
we think of sex trafficking, we normally think of Thailand or 
Nepal. We don't think of a suburban house outside of D.C. with 
$400,000 homes and manicured lawns where women are being 
beaten, raped and prostituted under the threat of death.
    We were able to get those women out but there are many 
other women and children who are still under the control of 
traffickers. Polaris Project has a data base of around 175 
commercial sex operations that are at high risk for trafficking 
in the greater D.C. area in Korean, Latino, Chinese and 
internal trafficking networks. D.C. pales in comparison to the 
massive networks that are present in LA, New York and other 
areas. With more funding, we could all expand our efforts to 
other cities and to other hot spots in the United States.
    Some of these operations are based out of residential 
houses, many of them unknown to law enforcement. They are 
advertised only to men of certain ethnic background. Others 
operate much more openly as commercial front massage parlors 
advertised in places like the Washington Post and Super Pages. 
Within a 1 mile radius of the White House alone, we are aware 
of 12 brothels in Korean and Latino networks that have high 
risk for trafficking. So we should all understand that modern 
day slavery could not be closer to home.
    Our Victim Outreach Team has begun to break into the 
isolation of these networks using outreach techniques designed 
in collaboration with survivors the sex trafficking networks 
but we have still barely scratched the surface. The Government 
and the NGO groups have barely scratched the surface.
    The standard I use to evaluate how well the U.S. Government 
is doing or how well groups like us are doing on this issue is 
asking have the majority of the traffickers noticed yet, 
particularly have the victims noticed yet? I think 
unfortunately even almost half a decade after passage of the 
TVPA, the answer is overwhelmingly no.
    There has been an increase in prosecutions as Mr. Acosta 
talked about but less than 1 percent of the estimated 17,000 
victims that are trafficked into the United States each year 
have been officially identified and assisted by the U.S. 
Government so far. That is a shocking statistic. I think if 
there is one statistic that reminds us how far we still have to 
go, that is certainly the one.
    Based on our experience working in the field with law 
enforcement, working with survivors and working with service 
agencies, I want to share three areas where I think we must 
improve. The U.S. Government and some of the witnesses here 
have mentioned that one of the largest obstacles to our 
progress so far has been the identification of trafficking 
victims. Many victims cannot leave their brothels, they don't 
contact third parties and so the dominant approach that the 
Federal Government has taken so far which is encouragement of 
third party reporting is inherently limited. It is a vital 
component to have if third parties are not aware of the 
victims, they cannot report on their cases.
    Federal and local law enforcement have the responsibility 
to proactively investigate commercial sex operations that are 
similar to networks that have trafficked victims before. Given 
the gravity of the crime and its importance to the U.S. 
Government, the Federal law enforcement should not assume that 
locations are primarily just places of prostitution. They 
should verify that trafficking is not present. Unfortunately, 
too often this is not possible because of resource constraints 
at the Federal level and prioritization of other crimes besides 
modern day slavery.
    The second is combating the root causes of trafficking in 
the country. Trafficking persons is the fastest growing 
criminal industry for two primary reasons. The first reason is 
that traffickers are rarely prosecuted. There is almost no risk 
to trafficking persons. The second reason is that there are 
very large profits that can be made very quickly. Both of these 
causes can be addressed through aggressive enforcement at the 
Federal and local level. People who are willing to exploit the 
most vulnerable of victims will not think twice if they think 
it is more likely for them to receive a parking ticket than to 
be prosecuted for modern day slavery. The men who buy the sex 
will not stop adding to the industry's coffers if they believe 
they will not be held accountable. So we must facilitate 
increased prosecutions if a deterrent effect is to be created 
and we must create funding opportunities in particular for 
local enforcement to give them the encouragement to work more 
on this issue.
    We have also found in the course of our work that 
traffickers are using techniques that amount to coercion but 
that fall outside the statutory language defining the offense 
of trafficking in persons. We must look at adjusting to the 
reality of trafficking on the ground. We must broaden the 
statutory language to include these new, more sophisticated but 
widespread control techniques including use of verbal 
intimidation, use of hierarchy within a cultural context, 
exploitation of vulnerability of the victims, things that are 
covered under the U.N. protocols but not covered under the 
Federal law.
    The last thing I want to mention is recently a girl shared 
her story with me about how since she was an early teen, she 
was forced to provide sex for men. She was beaten, she was 
raped by her trafficker. Remarkably enough most untrained law 
enforcement in the United States probably would not consider 
her a victim of trafficking because she is a U.S. citizen. The 
Federal law protects U.S. citizens and foreign nationals 
equally but in practice, most U.S. citizen victims continue to 
be prosecuted as prostitutes and have not received the type of 
protection that they need.
    In the DOJ assessment of trafficking released last year, 
the report almost ignored the internal trafficking of citizens 
in the United States except for a footnote that stated that 
there are an estimated over 200,000 American youth that are 
trafficked into sexual exploitation. That was the only mention, 
a footnote, and it went on to say it would not be covering that 
in the report.
    Mr. Burton. We are going to have about six or seven votes 
and we will be tied up for over a hour and I don't want to hold 
the panel, so if you could summarize so we could ask a couple 
questions, I would appreciate it.
    Mr. Ellerman. If any country can cross the trafficking 
industry within its borders, it is the United States. Thank you 
for your continued work. Your efforts have not and will not go 
unnoticed by the people to whom it matters most which are the 
victims themselves.
    Thank you.
    [The prepared statement of Mr. Ellerman follows:]

    [GRAPHIC] [TIFF OMITTED] T7774.074
    
    [GRAPHIC] [TIFF OMITTED] T7774.075
    
    [GRAPHIC] [TIFF OMITTED] T7774.076
    
    [GRAPHIC] [TIFF OMITTED] T7774.077
    
    [GRAPHIC] [TIFF OMITTED] T7774.078
    
    [GRAPHIC] [TIFF OMITTED] T7774.079
    
    Mr. Burton. Thank you.
    Let me make a couple of quick comments and questions and I 
will yield either to Ms. Watson or Mr. Smith and we will move 
on.
    You said there are 175 sex operations in the D.C. area. If 
you could give us some information on that, I would really 
appreciate that.
    Mr. Ellerman. Absolutely.
    Mr. Burton. I know you want to keep that kind of under 
wraps so we can nail these bad guys but we would like to have 
that if we can.
    You indicated there were some grants that were necessary 
that could be expanded that would be helpful. We would like to 
know also about those grants that you think could be expanded 
that would be helpful and in what way. If you could get that to 
us, we would appreciate it.
    Also, the three of you, in addition to the members that we 
had on the first panel along with the Members of Congress, if 
we could urge you to contact State or local affiliates of the 
networks as well as the major networks themselves on getting 
public service announcements, it would be very helpful. It 
would help your cause as well as making the public more aware 
of this issue who are not really as aware as they should be.
    You said only 1 percent of 17,000 people were being helped 
out of the 17,000 victims coming in each year to the United 
States or the people being prosecuted. If you could give us 
some data on that, I would like to know that. I thought 
according to Justice we were doing better than that. If you can 
give us that, we would appreciate it.
    Finally, you said we needed some change in statutory 
language to go after some of the people that are falling 
through the cracks right now. If we could have something so 
that Chris Smith and I could work on that. I know Chris is 
probably writing all this down as we speak but we would like to 
have any information on that we can so we can pursue that and 
maybe clean up or expand the language so it would be more 
effective.
    Chris, go ahead.
    Mr. Smith. Again, Mr. Chairman, thank you for your 
leadership for many years and not just in today's hearing.
    I have a couple questions to Mr. Song. You mentioned the T 
visa not being utilized as effectively as it could be. I raised 
that a number of times with Justice. Are they issuing continued 
present status in lieu of the T visas in your opinion or what 
do you think is happening there?
    Mr. Song. They are issuing continued presence when 
appropriate and when necessary. I think part of the problem 
with continued presence is it is not being granted as quickly 
as it could be. Some trafficking victims, once they come out 
and have the courage to report to law enforcement, they are 
asked to undergo interviews with the U.S. Attorneys' office, 
the FBI or ICE to determine whether they are a victim of a 
severe form of trafficking so they can decide whether to issue 
the continued presence or not. Some officials unfortunately 
still don't understand what continued presence is or that it is 
even available, so that is one problem.
    Some of them don't understand it well enough to know that 
they should be issuing the continued presence as soon as 
possible. Sometimes victims who have escaped rape, abuse for 
years at a time are told before we give you anything, any 
benefits, any kind of protection, you have to sit through 
grueling, detailed interviews for hours at a time or days at a 
time and then we have to think about it for days or weeks or 
months to decide whether you are a continued presence 
applicant. I think that kind of application is not what you 
intended when you drafted the TVPA and I think a lot of it is 
information and training issues but that needs to be 
implemented much faster. Imagine if you will that it was your 
son or daughter or somebody close to you that was trafficked 
and put in these situations. Would you tell them before we 
provide you any benefits, you have to sit through these 
interviews when they are in urgent need of care? I don't think 
so.
    In regard to the T visa, I am in agreement with Mr. 
Ellerman that there are a few barriers, unintended barriers 
albeit, but a few barriers that exist that make it difficult 
for people to want to apply and to get the T visas. I think the 
fact we have less than 400 T visas granted in 4 years is just 
unacceptable.
    Mr. Smith. As you know, for the first year it wasn't even 
up and running, the regulations had not been promulgated.
    In terms of the intra versus the inter country, it reminds 
me of the whole argument about refugees versus IDPs, a 
distinction without a difference for the poor soul who is 
suffering and doesn't have food and has to live in the 
equivalent of a refugee camp but they are still in-country. One 
of the things I think we need to do in addition to legislation 
is, as Mr. Ellerman mentioned before, to capture not just for 
statistical purposes but for action oriented purposes of 
helping those people, both in our country and in places like 
India and elsewhere where there are large numbers of people 
moving in the State or in the country to ensure they get 
protection. I think that would skew our Tier 3 list rather 
dramatically if we were to include those who have been so 
malaffected but are not counted because they don't cross over a 
border.
    Any ideas any of you have, again, I look to all three of 
you and your organizations and some of the other NGO's have 
provided great, useful suggestions and we want to receive them 
again for a third look and a third iteration if you will of 
this bill so that we can expand it.
    Ms. Clark, you mentioned the clandestine brothel. Just a 
case in point, in Plainfield, NJ, a wonderful town, our U.S. 
Attorney found a brothel with trafficked Mexican girls under 
age every one of them and those who did it got 17 and 18 years, 
those who committed these crimes and those girls have been 
protected and are now living in freedom.
    It is right, literally under our noses and so we need to be 
much more vigilant and hopefully we will be to capture them and 
to liberate the women.
    Thank you.
    Mr. Burton. I am so sorry that we have eight votes and it 
is going to take a hour before those votes are concluded. I 
don't want to hold you but if you would give us the information 
we requested, I promise you that we will do what we can to 
maybe talk to the local police and let them know we are 
watching what is going on to see if we can do something about 
that.
    Mr. Smith. Would the chairman yield?
    Mr. Burton. Yes.
    Mr. Smith. Mr. Ellerman made a very good point about the 
Washington Post and I am sure many other reputable newspapers 
have the same problem. If you go to their sports pages or in 
other parts of the newspaper, the advertisements for these so 
called massage parlors are very often fronts for trafficked 
women. It is a scandal that the Washington Post should carry 
such advertisements for such nefarious practices. Hopefully we 
can get them to pull it.
    Mr. Burton. In any event, thank you very, very much for 
being here. We will probably be talking to you real soon.
    We stand adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                 <all>

</pre></body></html>
